         OFFICE OF

    INSPECTOR GENERAL



    Semiannual Report to Congress

    April 1, 2000 - September 30, 2000



        Federal Election Commission

             999 E Street, N.W.

                  Suite 940

          Washington, D.C. 20463


                202-694-1015

          Toll-Free: 1-800-424-9530


         e-mail address: oig@fec.gov

website address: http://www.fec.gov/fecig.htm



              November 2000

                                     ANNOUNCING

              THE FEDERAL ELECTION COMMISSION
                OFFICE OF INSPECTOR GENERAL

                        E-MAIL ADDRESS: oig@fec.gov


The Internet and the world wide web (www) have become essential components in
conducting business with the Federal Election Commission (FEC), and the government as a
whole. The OIG established an e-mail address (oig@fec.gov) as a means for FEC
employees and the public to electronically contact the OIG.

The OIG website (http://www.fec.gov/fecig.htm) was designed to provide information
and material in an efficient and convenient manner. The OIG webpage contains electronic
copies of completed OIG reports. Visitors to the home page can obtain information such as
a list of our final audit reports, as well as download copies of our audit reports and
semiannual reports to congress (pdf format).




April 1, 2000 - September 30, 2000
                                  TABLE OF CONTENTS

SUBJECT                                                                                     PAGE




EXECUTIVE SUMMARY.........................................................                     1


FEDERAL ELECTION COMMISSION....................................                                6


AUDITS...................................................................................      8


INVESTIGATIONS..................................................................               14


ADDITIONAL OFFICE OF INSPECTOR GENERAL

   ACTIVITY.........................................................................           15


ECIE AND PCIE ACTIVITY.....................................................                    21


REPORTING REQUIREMENTS..............................................                           23


TABLE I - QUESTIONED COSTS...........................................                          24


TABLE II - FUNDS PUT TO BETTER USE.............................                                25


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING

            FOR MORE THAN SIX MONTHS.......................                                    26


FEC/OIG STRATEGIC PLAN...................................................                      27


CONTACTING THE OFFICE OF INSPECTOR

   GENERAL..........................................................................           28





April 1, 2000 - September 30, 2000
                                EXECUTIVE SUMMARY


         This report is submitted pursuant to the Inspector General Act of

1978, as amended. This Executive Summary provides a brief synopsis of

accomplishments and general activities pertaining to the Office of Inspector

General (OIG) for the period April 1, 2000 through September 30, 2000.



         During this semiannual reporting period, the OIG released one audit

report entitled, Agency Controls Governing the Process for Procurement

of Vendor Training Services (OIG-00-01 - September, 2000). The

primary objective of this audit was to assess economy, efficiency, and

effectiveness of management controls governing the process for procurement

of training services obtained through outside vendors.



         A hearing was held on May 18, 2000 by the Senate Subcommittee on

Management, Restructuring, and the District of Columbia. The hearing was

held to examine the Federal government’s commitment to develop and train

its workforce. Our audit covered several issues addressed during the

hearing, which related to staff development at the Commission using outside

vendors.



         During the audit, the OIG interviewed agency staff, analyzed training

records and reviewed training related financial information to determine

whether or not the Federal Election Commission (FEC) has put in place

April 1, 2000 - September 30, 2000                                           Page 1
management controls required by OMB directives and Federal regulations.

This included adopting specific practices for managing the training of agency

staff and maintaining a complete record of staff training activities.



         Based on our audit work, we concluded that agency controls governing

the process for procurement of vendor training services are not effective or

efficient. Although we did not examine training developed “in-house,” which

is training created and administered by agency staff for agency staff, during

our audit we found that the FEC would not be capable of producing a

complete record of all staff training and activities which would comply with

existing Federal laws and regulations. However we noted no specific

instances of fraud or abuse.



         Our report contained seven audit recommendations. Detailed

information regarding this audit report can be found on page 8, the Audit

section of this report.



         The Office of Inspector General initiated an audit during the previous

reporting period entitled, Procurement Operations (OIG-00-03). The

primary objectives of this audit are to 1) determine whether or not the FEC

has an efficient and effective procurement system in place; and 2) to

determine whether the FEC’s procurement process complies with statutory

and regulatory requirements. The audit is being conducted to determine if


April 1, 2000 - September 30, 2000                                         Page 2
the Commission has implemented the key acquisition reforms contained in

the Federal Acquisition Streamlining Act (FASA) of 1994.



         We are in the process of completing the audit and anticipate releasing

the report during the next reporting period. Significant information

pertaining to this audit is located on page 8, the Audit section of this report.



         The following items highlight additional activities of the Office of

Inspector General during this reporting period. Items are described in

greater detail on page 15, the section entitled Additional Office of

Inspector General Activity.



         • 	 The OIG received a congressional inquiry signed by Congressmen

             Sessions, Dreier, Davis, and Ose. The request was part of an

             inquiry of Federal agencies’ websites and their utilization of the

             Internet. The Congressmen were particularly interested in

             knowing the status of the FEC’s website in addition to seeking a

             response to several questions relating to the capabilities of the

             website, such as accessibility to the disabled and search functions.



             The OIG, along with assistance from the Director of the Data

             Systems Development Division, addressed each of the inquiries and




April 1, 2000 - September 30, 2000                                               Page 3
             forwarded the response to each of the Congressmen. For more

             information, see page 15.



         • 	 The OIG responded to correspondence from the Government

             Auditing Standards Committee concerning the GAO document

             Preliminary Views, Government Auditing Standards, Independence.

             The IG’s purpose for responding to the correspondence was to voice

             her opinion over the views expressed in the document regarding

             Designated Federal Entity (DFE) Inspectors General.



             The Inspector General’s main concern was the attempt to question

             the independence of a specific group of IGs, which she feels is a

             threat to all IGs. Although DFE inspectors general have statutory

             rights and protections to assure their independence, the IG felt that

             creating two different standards of independence for inspectors

             general is inconsistent with statutory intent. For additional

             information on this subject, see page 16.



         • 	 In an effort to identify and provide useful, relevant, and cost-

             effective training for auditors working in various Inspector General

             offices, the Department of Defense (DOD), Office of Inspector

             General requested data to identify and evaluate training provided

             to OIG auditors from fiscal year 1998 through fiscal year 2000.


April 1, 2000 - September 30, 2000                                               Page 4
             The purpose of the review was to support the PCIE Audit

             Committee’s goal in determining if the curriculum at the Inspector

             General Auditor Training Institute (IGATI) needs to be changed to

             continue to meet the needs of the Federal Inspector General audit

             community. The information was compiled and forwarded to DOD

             OIG. See page 17 for more information.



         • 	 During this reporting period, two cash counts of the Federal

             Election Commission’s (FEC) imprest fund were performed (OIG-

             00-05 and OIG-00-06). This is an ongoing task conducted by the

             Special Assistant to the Inspector General. For detailed

             information regarding the imprest fund cash count, see page 18.




April 1, 2000 - September 30, 2000                                          Page 5
                     THE FEDERAL ELECTION COMMISSION


                  The Federal Election Commission (FEC) is an independent,

regulatory agency responsible for administering and implementing the

Federal Election Campaign Act (FECA). The FEC is composed of six

Commissioners who are appointed for six year terms by the President of the

United States, with the advice and consent of the Senate. The FECA

likewise established the positions of Staff Director and General Counsel, who

are appointed by the Commissioners.



         During this reporting period, the FEC received one new Commissioner,

Professor Bradley A. Smith, who was sworn in on June 27, 2000. He joins

Chairman Darryl R. Wold, Vice Chairman Danny L. McDonald,

Commissioners David M. Mason, Karl J. Sandstrom, and Scott E. Thomas.

This gives the FEC a full compliment of Commissioners.



                     OFFICE OF INSPECTOR GENERAL


         The Federal Election Commission is one of the thirty-three designated

agencies required to have an Inspector General under the 1988 amendments

to the Inspector General Act of 1978 (P.L. 100-504).




April 1, 2000 - September 30, 2000                                           Page 6
         The responsibilities of the Inspector General as stated in P.L. 100-504

are as follows:

                  • 	 conduct and supervise audits and investigations relating to

                      the Federal Election Commission’s programs and operations;



                  • 	 provide leadership, coordination, and to recommend policies

                      for activities designed to promote economy, efficiency and

                      effectiveness in the administration of Commission programs

                      and operations. To prevent and detect fraud, waste and

                      abuse in these programs and operations, and;



                  • 	 keep the Commissioners and Congress fully and currently

                      informed about problems and deficiencies and the need for

                      and progress of corrective actions.



The OIG is under the supervision of the Inspector General who provides

overall direction to the staff. The OIG staffing level for FY 2000 is four (4)

full time employees. This is also the projected staffing for FY 2001. The staff

consists of the Inspector General, the Special Assistant to the Inspector

General and two Senior Auditors.




April 1, 2000 - September 30, 2000                                             Page 7
                                                AUDITS


TITLE:                               Agency Controls Governing the Process for
                                     Procurement of Vendor Training Services


ASSIGNMENT #:                        00-01

RELEASE DATE:                        September, 2000

PURPOSE:                             The primary objective of this audit was to assess

economy, efficiency, and effectiveness of management controls governing the

process for procurement of training services obtained through outside

vendors.



         The Senate Subcommittee on Government Management,

Restructuring and the District of Columbia, held a hearing on May 18, 2000

to examine the Federal government’s commitment to develop and train its

workforce. Our audit covered many of the issues addressed during that

Senate hearing.



         The Office of Inspector General (OIG) completed a limited-scope audit

of the staff training program at the Federal Election Commission (FEC). The

code of Federal regulations requires Federal agencies to adopt specific

practices for managing the training of agency staff. A key provision of the




April 1, 2000 - September 30, 2000                                                  Page 8
Federal regulations requires maintaining a complete record of staff training

activities.



         The procurement of vendor training services at the FEC is comprised

of a set of operating practices which seem to have simply evolved over time

without the aid of written administrative policy and procedures. From

agency staff we interviewed during our audit, there is an unanimous

agreement that the current process for submitting and approving staff

requests for vendor training services is a cumbersome, paper intensive

process which is extremely costly, especially in terms of the unnecessary

expenditure of staff time.



         During the audit, the OIG used various methods of data collection

including staff interviews, document reviews, and the examination of

individual training records for fiscal year 1999. However, we did not

examine training developed “in-house,” which is training created and

administered by agency staff, for agency staff. In addition, we assessed the

system of management controls and operational practices relating to the

process for procurement of outside vendor training services. Our assessment

was performed to determine whether or not the FEC has in place

management controls required by OMB directives and Federal regulations.

In general, these controls include the policies and procedures the FEC has

designed and implemented to establish a process for training agency staff.



April 1, 2000 - September 30, 2000                                           Page 9
         Throughout the audit, we regularly updated management on program

risks. We identified a substantial number of weaknesses as a result of

ineffective and inefficient controls governing the process for procurement of

vendor training services. We concluded that if the FEC would design formal

administrative policies and procedures, as well as adopt our other audit

recommendations, significant weaknesses in the current program could be

eliminated. We also believe that during the design stage for developing

policy and procedures, the FEC will identify other methods to streamline and

improve the current process.



         Management provided written comments to our seven audit

recommendations. Three of the recommendations have been fully

implemented. However, regarding the remaining three recommendations,

management’s corrective actions appear appropriate, and when fully

implemented, should adequately respond to the issues. Management

disagreed with our audit recommendation to develop and implement a

computer information system to replace the paper based system of records

currently maintained for requesting and acquiring vendor training services.



         Management does not believe that an automated vendor training

request process would be cost effective, based on the size of the agency’s

annual training budget. The OIG believes that further analysis is necessary



April 1, 2000 - September 30, 2000                                           Page 10
before management’s reasons for not agreeing with the audit

recommendation is accepted.




April 1, 2000 - September 30, 2000                            Page 11

Audits (continued)



TITLE:                               Procurement Operations


ASSIGNMENT #:                        00-03


RELEASE DATE:                        In Progress


PURPOSE:                             The primary objectives of this audit are to 1)


determine whether or not the FEC has an efficient and effective procurement


system in place; and 2) to determine whether the FEC’s procurement process


complies with statutory and regulatory requirements.




         The audit is being performed to determine if the Commission has

implemented the key acquisition reforms contained in the Federal Acquisition

Streamlining Act (FASA) of 1994. The audit will include soliciting feedback

from Commission divisions on the positive and negative aspects of the

Commission’s process to purchase goods and services. The OIG is also

interested in knowing if the goods and services are delivered in a timely

manner; would written guidelines on how to order goods and services be

helpful; and is there a need for additional staff training to address the

procedures for acquiring goods and services.



         The OIG sent an e-mail survey to managers to assess their satisfaction

and experience with the Commission’s procurement process. The e-mail

stated that we intend to forward the comments to the Administrative

Division because we believe it may be beneficial for them to receive the

April 1, 2000 - September 30, 2000                                                     Page 12
feedback. However, we agreed to withhold names and divisions from the

responses, and in some cases, edited some of the comments in order to protect

the contributor’s anonymity. This feedback has already been provided to

management. We anticipate completing this audit report during the next

reporting period.




April 1, 2000 - September 30, 2000                                     Page 13
                                     INVESTIGATIONS


         No new investigations were opened during this reporting period.

However, the OIG received over 7,500 letters of complaints from outside

sources regarding 1) alleged inappropriate activities of various committees;

2) alleged campaign finance violations; and 3) illegal fundraising activities of

candidates for federal office. The majority of the 7,500 letters were from an

organization that urged its members to sign the letters requesting an FEC

investigation of a specific campaign. The letters were received as a bulk

delivery.



         Since the inception of our e-mail account, we also received several e-

mail inquiries regarding allegations of candidates who indulge in fraud or the

conspiracy to commit fraud, as well as abuse of power and ballot fixing. The

letters and e-mails were reviewed by the IG and consequently referred to the

appropriate FEC component.




April 1, 2000 - September 30, 2000                                          Page 14
      ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


         All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and

comments, when appropriate, on all legislation provided by the PCIE

Legislative Committee. The Inspector General also routinely reads all

Commission agenda items and attends Finance Committee Meetings.



         During this semiannual reporting period, the OIG responded to a

Congressional request for information regarding the status of the FEC’s

website. The inquiry was signed by the following members of Congress: Pete

Sessions, Chairman, Results Caucus; David Dreier, Chairman, Committee on

Rules; Tom Davis, Chairman, Subcommittee on DC; and Representative

Doug Ose. The request was part of an inquiry of Federal agencies’ websites

and their utilization of the Internet. The Congressmen were particularly

interested in knowing the status of the FEC’s website in addition to seeking a

response to several questions relating to the capabilities of the website, such

as accessibility to the disabled and search functions.



         After several follow-up conversations with Congressman Session’s

staff, it was determined that the IG would facilitate the request within the

agency. With assistance from the Director of the Data Systems Development


April 1, 2000 - September 30, 2000                                         Page 15
Division, the inquiries were addressed and forwarded to each of the

Congressmen.



         One of the questions dealt with using the website as a central

repository for frequently used forms, files, and information. The FEC

website has been designed to act as a central repository for frequently used

forms, files and information since its inception. All forms required to be

submitted to the FEC are available on the website, and the retrieval of

financial reports and data submitted to the Commission from the web has

become the standard method of retrieval, both within the Commission, as

well as among the public.



         The OIG also responded to the Government Auditing Standards

Committee concerning the GAO document Preliminary Views, Government

Auditing Standards, Independence. The IG’s purpose for responding to the

correspondence was to voice her opinion over the views expressed in the

document regarding Designated Federal Entity (DFE) Inspectors General.



         Since the passage of the Inspector General Act in 1978, Congress felt

the need to establish additional offices of inspectors general in agencies that

did not have an independent audit function. This was accomplished with the

1988 amendments to the IG Act. It is very clear that Congress extended the


April 1, 2000 - September 30, 2000                                           Page 16
independence contained in the IG Act to the DFE IGs. The IG Act also states

that the head of a designated Federal entity shall not prevent or prohibit the

IG from initiating, carrying out, or completing any audit or investigation.



         The DFE IGs are required to keep Congress fully and currently

informed of any serious problems, abuses or deficiencies. This is done

through semiannual reports or immediate reports, if necessary. The head of

the designated agency may not remove the inspector general without

notifying Congress of the reasons involved in such a removal. Peer reviews

are also independently performed of each IG office to assure that audits are

conducted according to government standards and no impairments to

independence are present.



         What concerned the IG the most was the committee’s attempt to

question the independence of a specific group of IGs, which she feels is a

threat to all IGs. The DFE inspectors general have statutory rights and

protections to assure their independence as mentioned above, and the IG felt

that creating two different standards of independence for inspectors general

is inconsistent with statutory intent. Furthermore, it is the opinion of the IG

that all federal inspectors general should be covered by the independence

standard.




April 1, 2000 - September 30, 2000                                       Page 17
          The OIG also responded to a memorandum from the Department of

Defense (DOD), Office of Inspector General for Audit Policy and Oversight

requesting data to identify and evaluate training provided to OIG auditors

from fiscal year 1998 through fiscal year 2000.



          One of the strategic goals of the PCIE Audit Committee, is to identify

and provide useful, relevant, and cost effective training for auditors working

in various Inspector General offices. The information requested will support

the Audit Committee’s goal by determining if the curriculum at the Inspector

General Auditor Training Institute (IGATI) needs to be changed to continue

to meet the needs of the Federal Inspector General audit community. To

assist in the review, the OIG supplied information on the training courses

that we provided to our auditors, which will be used to aid in anticipating the

needs for future training.



          During this reporting period, two unannounced cash counts of the

FEC’s imprest fund were performed (OIG-00-05 and OIG 00-06). This is an

ongoing task conducted by the Special Assistant to the Inspector General.

The imprest fund consist of three drawers totaling $2,500. The results of the

cash counts revealed that all cash was accounted for and cash disbursements

from the imprest were reasonable and consistent with FEC imprest fund

policy.




April 1, 2000 - September 30, 2000                                          Page 18
         Two projects were initiated but not completed before the end of this

reporting period. They include a project relating to staff retirement

eligibility over the next 5, 7, and 10 years and a review of the FEC

Recreation Association. We anticipate providing more information regarding

these projects during the next reporting period.



         The Inspector General continues to participate in activities of the

Executive Council on Integrity and Efficiency (ECIE). The IG served on the

review board of the ECIE awards panel. The OIG staff attended the

PCIE/ECIE awards ceremony where our senior auditor, Jonathan Hatfield

was presented with an ECIE award for individual accomplishment. The

citation read as follows: “In recognition of his outstanding contributions to

the mission of the Office of Inspector General, Federal Election Commission.

His efforts have been instrumental in ensuring the professionalism and

effectiveness of the OIG.”



         An OIG staff member, in coordination with the Data Systems

Development Division, reviewed the results of the Commission’s information

technology (IT) security review performed by Booz-Allen & Hamilton, Inc.

The IT security review included a computer network risk assessment and

network penetration tests.




April 1, 2000 - September 30, 2000                                             Page 19
         The FEC OIG was contacted by an agent of a federal agency regarding

a background check of a current employee who was interviewed and selected

for employment outside the FEC. The IG had no negative information

regarding this particular employee.



         In an effort to further FEC employees’ understanding of the role of the

Inspector General, an OIG staff person developed, in draft form, an OIG

informational pamphlet. When completed, the pamphlet will be distributed

throughout the Commission, and given to new employees upon arrival.




April 1, 2000 - September 30, 2000                                         Page 20
                              ECIE AND PCIE ACTIVITY


         The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics,

the Office of Special Counsel, the Federal Bureau of Investigation and the

Office of Management and Budget.



         The Inspector General (or staff) attended the following training,

programs and/or conferences during this reporting period:



         •   ECIE - Monthly Meetings

         •   PCIE/ECIE - Joint Quarterly Meeting

         •   PCIE/ECIE - Awards Ceremony

         • PCIE - IT Roundtable Discussion

         • 	 PCIE - Professional Development Forum - Methods and Milieu
             Forum

         • 	 Information Systems Audit & Control Association - Control &
             Security of Electronic Commerce

         • 	 Information Systems Audit & Control Association - Control &
             Security of Oracle NW

         • 	 Institute of Internal Auditors - The American Dream and the Law
             of Unintended Consequences

         • 	 Association of Government Accountants - 49th Annual Professional
             Development Conference & Exposition - Expand your Horizons in
             Government Accountability

April 1, 2000 - September 30, 2000                                           Page 21
         • 	 General Accounting Office - 13th Biennial Forum of Government
             Auditors - Forging Government Accountability over a Quarter
             Century

         • 	 Heritage Foundation - Government Performance Results Act
             Conference

         • 	 Federal IT Accessibility Initiative - Developing Accessible Websites
             Training

         • 	 Department of Treasury - OIG Wide Statistician Advisory Group
             Meeting

         • 	 Professional Development Committee - Internet-based Electronic
             Audit Management (I-BEAM) Training

         • 	 Federal Election Commission - Labor Relations Training for
             Supervisors

         • 	 Federal Election Commission - Form Flow Software Application
             Training




April 1, 2000 - September 30, 2000                                          Page 22
IG ACT                     REPORTING REQUIREMENTS                                         PAGE

Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:

Section 4(a)(2)            Review of Legislation-----------------------------------------------15

Section 5(a)(1)	           Significant Problems, Abuses, and
                           Deficiencies---------------------------------------------------------None

Section 5(a)(2)	           Recommendations with Respect to
                           Significant Problems, Abuses, and
                           Deficiencies---------------------------------------------------------None

Section 5(a)(3)	           Recommendations Included in Previous
                           Reports on Which Corrective Action Has
                           Not Been Completed-----------------------------------------------26

Section 5(a)(4)	           Matters Referred to Prosecutive
                           Authorities---------------------------------------------------------None

Section 5(a)(5)	           Summary of Instances Where Information
                           was Refused-------------------------------------------------------None

Section 5(a)(6)            List of Audit Reports-----------------------------------------------8

Section 5(a)(7)            Summary of Significant Reports-------------------------------8

Section 5(a)(8)            Questioned and Unsupported Costs-------------------------24

Section 5(a)(9)	           Recommendations that Funds be put
                           to Better Use--------------------------------------------------------25

Section 5(a)(10)	          Summary of Audit Reports issued before
                           the start of the Reporting Period for which
                           no Management Decision has been made----------------N/A

Section 5(a)(11)           Significant revised Management Decisions-------------N/A

Section 5(a)(12)	          Management Decisions with which the
                           Inspector General is in Disagreement-------------------None




April 1, 2000 - September 30, 2000                                                                     Page 23
                                           TABLE I

                        INSPECTOR GENERAL ISSUED REPORTS
                              WITH QUESTIONED COSTS


                                                     DOLLAR VALUE (in thousands)

                                                     QUESTIONED    UNSUPPORTED
                                          NUMBER        COSTS         COSTS




A. 	 For which no management                0             0              [0]
     decision has been made by
     commencement of the reporting
     period


B. Which were issued during the             0             0              [0]
   reporting period

         Sub-Totals (A&B)                   0             0              [0]


C. 	 For which a management                 0             0              [0]
     decision was made during
     the reporting period

         (i) Dollar value of disallowed     0             0              [0]
             costs

         (ii) Dollar value of costs         0             0              [0]
              not disallowed


D. 	 For which no management                0             0              [0]
     decision has been made by the
     end of the reporting period


E. 	 Reports for which no management        0             0              [0]
     decision was made within
     six months of issuance




April 1, 2000 - September 30, 2000                                             Page 24
                                           TABLE II

              INSPECTOR GENERAL ISSUED REPORTS WITH
         RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                               NUMBER   DOLLAR VALUE
                                                         (in thousands



A.	      For which no management                 0            0
         decision has been made by
         the commencement of the
         reporting period

B. 	     Which were issued during                0            0
         the reporting period

C.	      For which a management                  0            0
         decision was made during
         the reporting period

         (i) 	    dollar value of                0            0
                  recommendations
                  were agreed to by
                  management

                  based on proposed              0            0
                  management action

                  based on proposed              0            0
                  legislative action

         (ii) 	   dollar value of                0            0
                  recommendations
                  that were not agreed
                  to by management

D. 	     For which no management                 0            0
         decision has been made by
         the end of the reporting period

E. 	     Reports for which no                    0            0
         management decision
         was made within six months
         of issuance




April 1, 2000 - September 30, 2000                                   Page 25
                                                TABLE III

           SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
                OUTSTANDING FOR MORE THAN SIX MONTHS




                                                            Recommendations
Audit               Report            Management
Report              Issue              Response
Number              Date                 Date               Number   Closed   Open

97-02               01/98               01/98                 4        3        1


98-08               05/99               04/99                 9        3        6





April 1, 2000 - September 30, 2000
                                           Page 26
                                                                       FEC / OIG Strategic Plan
                                                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                           processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                           the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                           resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                         diverse and motivated employees.
 positive change.                                            Objective A: Maintain a dynamic strategic
                                                             planning process.                                              Strategy:
                                                                                                                            - develop and implement a comprehensive recruiting program
 Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
 - establish common OIG standards for communicating          Strategy:                                                      abilities, and expertise necessary to make meaningful
 results;                                                    - periodically review and update the strategic plan to
                                                                                                                            contributions to the OIG;
 - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                            - assess employee satisfaction and develop strategies to address
 - solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                            employee concerns;
 comment;                                                    develop short and long term plans to address them.
                                                                                                                            - identify reasons for staff departures and develop plans to foster
 - comply with applicable statutory guidelines and                                                                          greater staff retention; and,
 standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.                                                                                force.

 Objective B: Address priority issues and
 concerns of the Commission, Congress,
                                                             Objective B: Plan and conduct cost-
 and Management.
                                                             effective work that address critical issues                    Objective B: Provide training and developmental
 Strategy:     Perform work that supports;                   and results in positive change.                                opportunities to employees.
 - Federal Election Commission and Congressional
 priorities;                                                 Strategy:                                                      Strategy:
 - National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
 - Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                             - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
 Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
 - managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
 - resource allocation in relation to policy objectives;     and,                                                           requirements are met.
 - delivery of client service;                               - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,                    cost-effective
 - automation and communication.



                                                             Objective C: Identify customer needs and
                                                             provide products and services to meet
 Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                    when possible, performance that contributes to
 assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
 positive change.                                            - establish new customer feed back mechanisms;
                                                             - consider and evaluate customers feedback when
                                                             planning and developing products and services;
                                                                                                                            Strategy:
 Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                            - develop and articulate expectations for each employee's
 - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                             briefing and testimony;
 timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                             - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                             outreach and through use of e-mail; and,
 results have been achieved.                                                                                                exceptional employee performance.
                                                             - receive, evaluate, and respond, as appropriate, to
                                                             information received through the OIG hotline and other
                                                             sources.


 Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
 consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                             and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.                                                    procedures.                                                    effective communication.
 Strategy:                                                   Strategy:
 - establish professional communication and interaction
                                                             - ensure that IG follow-up procedures are followed and that
                                                                                                                            Strategy:
 with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                             management is aware of their role in the process; and,
 - incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                             - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                             maintenance and communications.
 options.


                                                             Objective E: Establish a positive and
                                                             productive working environment.

                                                             Strategy:
                                                             - reengineer or streamline OIG procedures to achieve the
                                                             most effective use of resources; and,
                                                             - ensure that necessary technologies, evolving and
                                                             otherwise, are made available to staff as needed.



 Performance Measures: Determine the
 timeliness and quality of products and                      Performance Measures: An annual audit                          Performance Measures: All employees meet
 services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
 with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
 the report issue date.




April 1, 2000 - September 30, 2000                                                                                                                                           Page 27
          CONTACTING THE OFFICE OF INSPECTOR GENERAL

The success of the OIG mission to prevent fraud, waste, and abuse depends
on the cooperation of FEC employees (and the public). There are several
ways to report questionable activity.




         Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
         anonymous message can be left 24 hours a day / 7 days a week.




         Write or visit us - we are located at:	     Federal Election Commission
                                                     Office of Inspector General
                                                     999 E Street, N.W., Suite 940
                                                     Washington, DC 20463

                             Mail is opened by OIG staff members only.




                            You can also contact us by e-mail at: oig@fec.gov.


Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.




April 1, 2000 - September 30, 2000                                               Page 28
